la
APPENDICES

18-2415-cv
Flowers v. Connecticut Light and Power Company
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 29th day of May, two thousand nineteen. Present DEBRA ANN LIVINGSTON,
GERARD E. LYNCH, RICHARD J. SULLIVAN, Circuit Judges.
PATRICIA A. FLOWERS,
Plaintiff-Appellant,
v.

18-2415-cv

CONNECTICUT LIGHT AND POWER COMPANY, AKA NORTHEAST UTILITIES, AKA
EVERSOURCE ENERGY,
Defendant-Appellee
For Plaintiff-Appellant:

Patricia Flowers, pro se,
West Hartford, CT

For Defendant Appellee:

Honor Southard Heath, Senior Counsel,
Eversource Energy Service Company, Berlin CT

Appeal from a judgment of the United States District Court for the District of
Connecticut (Bryant, J.). UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the judgment of the district court is
AFFIRMED.
Plaintiff-Appellant Patricia Flowers (“Flowers”), proceeding pro se, appeals
from the September 29, 2017 decision and order of the United States District Court

2a

for the District of Connecticut (Bryant, J) granting summary judgment in favor of
her former employer, the Connecticut Light and Power Company (“Eversource”),
with respect to her employment discrimination and retaliation claims brought
pursuant to 42 U.S.C. § 1981 and Title VII of the Civil Rights Act of 1964.
We review de novo a district court’s order granting a motion for summary judgment
Sotomayor v. City of New York, 713 F.3d 163, 164 (2d Cir. 2013).
Summary judgment is appropriate when “there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a). Although we draw all inferences in favor of the non-moving party,
that non-moving party may not rely upon “conclusory statements or mere
allegations,” but must instead “go beyond the pleadings, and by his or her own
affidavits, or by the depositions, answers to interrogatories, and admissions on file,
designate specific facts showing that there is a genuine issue for trial.” Davis v.
New York, 316 F.3d 93, 100 (2d Cir. 2002) (internal quotation marks and
alterations omitted). We assume the parties’ familiarity with the underlying facts,
the procedural history of the case, and the issues on appeal.
As an initial matter, Flowers argues that the district court granted only
partial summary judgment because it did not mention Flowers’s claims brought
under 42 U.S.C. § 1981 in its order. After reviewing the decision below, we disagree.
“[T]he order clearly stated that the [complaint] was dismissed in its entirety, and
the court clearly intended exactly that resultU” Cox v. United States, 783 F.3d 145,
148 (2d Cir. 2015). In other words, though the district court did not discuss

3a

Flowers’s § 1981 claims, it clearly intended to dismiss them, and we may affirm on
any grounds supported by the record, whether or not explicitly relied upon by the
district court. See Mitchell v. City ofNew York, 841 F.3d 72, 77 (2d Cir. 2016). As
discussed below, the district court properly granted summary judgment on all of
Flowers’s claims.
First, we affirm the district court’s dismissal of Flowers’s discrimination
claims. Flowers, an African-American woman, asserts that Eversource
discriminated against her in failing to promote her from the position of Associate
Analyst to that of Analyst in 2013. Failure-to-promote claims brought under Title
VII and § 1981 proceed under the burden-shifting analysis set forth in McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973). See Patterson v. McLean Credit
Union, 491 U.S. 164, 186-87 (1989), superseded by statute on other grounds, Civil
Rights Act of 1991, Pub. L. No. 102-166, 105 Stat. 1074; Howley v. Town of
Stratford, 217 F.3d 141, 150 (2d Cir. 2000).
Pursuant to this framework, a plaintiff must first establish a prima facie case of
discrimination, showing among other things, that she was qualified for the denied
position. Id. at 150. If the plaintiff meets this burden, and the employer comes
forward with evidence of a legitimate, nondiscriminatory reason for its decision, the
plaintiff must present sufficient evidence for a rational finder of fact to infer that
the employer’s proffered reason is pretext for discrimination in order to withstand
summary judgment. Id. In conducting this analysis, we “must respect an employer’s

4a

unfettered discretion to choose among qualified candidates.” Sassaman v. Gamache,
566 F.3d 307, 314 (2d Cir. 2009) (internal quotation marks and alterations omitted).
Even assuming that Flowers has established a prima facie case of race-based
discrimination, we agree with the district court that she has failed to produce
sufficient evidence that the failure to promote her was motivated by discriminatory
animus rather than by Eversource’s stated motivations. Eversource has offered
“legitimate, non-discriminatory reasonts],” McDonnell Douglas, 411 U.S. at 802, for
its failure to promote Flowers, including evidence that Flowers’s work performance
as an Associate Analyst was substandard and erratic. Indeed, only a few months
prior to Eversource’s failure to promote her, Flowers received a performance review
indicating that she at best met expectations as an Associate Analyst, a position
beneath that to which she sought to ascend. Flowers, for her part, has failed to offer
sufficient evidence of pretext. See Schwapp v. Town ofAvon, 118 F.3d 106, 110 (2d
Cir. 1997).
(“[E]ven in the discrimination context, a plaintiff must provide more than
conclusory allegations of discrimination to defeat a motion for summary
judgment.”). The district court therefore did not err in dismissing Flowers’s
discrimination claims and granting Eversource’s motion for summary judgment on
those claims.
Next, we affirm the district court’s decision to grant summary judgment in
favor of Eversource on Flowers’s retaliation claims predicated on her filing of an
internal discrimination complaint in 2013. Retaliation claims under Title VII and §

5a

1981 are also subject to the McDonnell Douglas framework. See Littlejohn v. City of
New York, 795 F.3d 297, 315 (2d Cir. 2015). Again, even assuming that Flowers has
established prima facie showing of retaliation, Eversource has offered ample
evidence of legitimate, non*retaliatory reasons for the allegedly adverse actions
taken toward Flowers following her filing of the complaint. Yet Flowers has failed to
provide sufficient evidence that these actions were instead motivated by
discriminatory animus. For example, Flowers highlights an exchange where an
Eversource employee conveyed to her that the company’s Information Technology
Department was ending its investigation into an alleged “spoofing” (i.e., hacking) of
her email. Eversource, however, presented a non-retaliatory justification for this
interaction: The company had twice investigated Flowers’s “spoofing” allegation and
found it meritless. Flowers has failed to provide support for her claim that this
exchange in fact constituted a retaliatory threat, issued in response to her internal
complaint.
Finally, Flowers argues that the district court erred in declining to consider
her two additional allegations of retaliation:
Eversource’s alleged inadequate investigation of her internal discrimination
complaint and its refusal to promote her for a second time in 2016. Flowers,
however, asserted these claims for the first time in her opposition to summary
judgment, and the district court therefore properly declined to consider them. See
Wright v. Ernst & Young LLP, 152 F.3d 169, 178 (2d Cir. 1998) (recognizing that a
party may not use an opposition to a dispositive motion as a means to amend the

6a

complaint). In any event, Flowers has not provided evidence that Eversource acted
with a retaliatory motivation either when it determined the scope of its
investigation or when it refused to promote Flowers in 2016. We have considered all
of Flowers’s remaining arguments and find them to be without merit. Accordingly,
we AFFIRM the judgment of the district court.1
FOR THE COURT
“s/” Catherine O’Hagan Wolfe,
United States Court of Appeals Second Circuit

1 Flowers asserts that her supervisor subjected her to disparate treatment based on her race
beginning in 2010. She also claims that Eversource engaged in an illegal cover-up of its wrongdoing
by omitting information from affidavits submitted to the Equal Employment Opportunity
Commission. Because Flowers raised both of these claims for the first time on appeal, we decline to
consider them here. See Askins v. Doe No. 1, 727 F.3d 248, 252 (2d Cir. 2013). We also decline to
consider Flowers’s argument, raised for the first time in her reply brief, that she should have been
granted leave to amend her complaint a second time. See JP Morgan Chase Bank v. Altos Hornos de
Mex., S.A. de C.V., 412 F.3d 418, 428 (2d Cir. 2005) (“[Arguments not made in an appellant’s
opening brief are waived even if the appellant pursued those arguments in the district court or
raised them in a reply brief.”).

7a

UNITED STATES DISTRICT OF CONNECTICUT

PATRICIA FLOWERS,
Plaintiff,
v.

3:l5-cv-534 (VLB)
September 29, 2017

CONNECTICUT LIGHT & POWER CO.,/aka NORTHEAST UTILITIES,
a/k/a EVERSOURCE ENERGY
Defendants.
MEMORANDUM OF DECISION GRANTING DEFENDANTS MOTION FOR
SUMMARY JUDGMENT [DKT. 24]
I.

Introduction
Plaintiff Patricia Flowers (“Plaintiff’ or “Flowers”) brings this employment
discrimination action against Defendant Eversource Energy (“Defendant” or
“Eversource”) under Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e, et
seq. The Defendant moved for summary judgment and Plaintiff filed an opposition.
[Dkt. 24 (“Motion”); Dkt. 52 (“Opposition”).] For the reasons that follow, Defendant’s
Motion is GRANTED.
I.

Factual Background
The following facts, unless otherwise noted, are drawn from the parties’ D.
Conn. L. R. 56(a) statements of undisputed facts.

8a

Plaintiff Patricia A. Flowers (“Flowers” or “Plaintiff’) is an African American
woman. [Dkt. 26*6 at 106.] On September 21, 2009, she was hired by the
Defendant, The Connecticut Light and Power Company, now doing business as
Eversource Energy (“Defendant”), as an Associate Analyst in the Transmission
Reliability Compliance Department. [Dkt. 26 (Def. 56(a)(1) Stmt.) at f 1, Dkt. 52*1
(PI. 56(a)(2) Stmt.) at If 1.]
Plaintiffs department works with “numerous Eversource subject matter
experts to ensure all compliance requirements are met and documented
appropriately. [Dkt. 26 at If 7.] This supports reliable electric service to Eversource
customers. Id. Eversource is part of the “electric grid” that transmits electricity in and out
of Connecticut and New England. Id. As such, Eversource is obligated under the Federal
Power Act to provide accurate reporting on reliability issues.” Id. “Failure to provide
accurate reporting may result in fines and other sanctions including penalties up to
one million dollars per day per violation.” [Dkt. 52*1 at <f 8.]
Plaintiff was evaluated twice as a new employee by her direct supervisor
Karl Tammar. [Dkt. 52-19.] On or about October of 2010, Karl Tammar left the
Defendant’s company and William Temple became Plaintiffs supervisor. [Dkt. 26
at 1f 5, Dkt. 52-1 at f 5.] In early 2011, Temple completed Plaintiffs 2010 Job
Performance review. [Dkt. 26-6 at 59-60.] He rated her job performance as a 2 out
of 5 and did not recommend her for a raise. [Id.', Dkt. 26-5 at 2.]
On January 15, 2011, after midnight early on a Saturday morning,
Plaintiff used the Eversource email system to send Temple and his supervisor,

9a

Dwayne Basler, an email, which Plaintiff admitted to sending while under the
influence of alcohol. [Dkt. 26 t at 11, Dkt. 52-1 at *| 11.] The parties have not
produced the email for the Court’s review, but Plaintiff discussed the email at her
deposition and referenced that the email mentioned Plaintiff describing herself as
an “imperfect perfectionist.” [Dkt. 26-6 at 62-63.] Plaintiff also quoted the email
as stating “I can see a lot more clearly now,” and “I’ll try to get my performance
review report in to you before Monday.” Id. Plaintiff could not recall to what
those statements referred. Id.
Plaintiff would later report a conversation she had with her Supervisor
William Temple, shortly after he took over the position, where he talked to her
about his Japanese heritage and how as a child he was ashamed of his bi-racial
identity and that he had been told by his mother that he should marry Caucasian
people. [Dkt. 52-15 at 2.] Plaintiff testified that she did not remember whether the
conversation happened before or after she sent Temple her midnight email. [Dkt.
26-6 at 63-64.] Temple asserts the conversation occurred after the midnight email.
[Dkt. 52-15 at 2.]
In March of 2011 Plaintiff wrote a letter to Deborah Feringo, a former
Human Resources Partner, to object to her job performance rating. [Dkt. 52-17.]
In May 2011, an Analyst who was training
Flowers filed a harassment complaint against her. [Dkt. 26 at If 12, Dkt. 521 at f 12.] Neither party submits exhibits detailing the incident, hut as a result
Dwayne Basler, then a Director of the Transmission Operations and Reliability

10a

Compliance Department, “counseled [Plaintiff] on respect for co workers and about
the importance of teamwork at the Company.” [Dkt. 26-8 at f 8.] In 2012, Plaintiff
complained that an engineer spoke with Temple about an issue with her work
product instead of speaking with her directly. [Dkt. 27 6 at 209-23 - 211:5, Dkt 267 at 53:3-20.] She made her statements directly to the offending engineer and in
front of Temple. Id.
In Plaintiffs annual review in 2012, her supervisor stated she did “not
follow through on assignments and had to be reminded,” “wait[ed] to the last
minute to get things done rather than planning her work ahead of time,” that she
is so willing to please that she “promise[d] more than she can deliver,” and that
she needed to “improve in the overall quality and consistency in her work.” [Dkt.
26-5 at 16, 17, 18.]
In April 2013 Flowers informed Temple that she was going to apply for the
Analyst position in the Transmission Reliability Compliance Department. [Dkt. 262 at 67.] Plaintiff stated Temple informed her she was not eligible for the position.
See id. at 155-57. Temple also mentioned that managers had informed him that
they did not want to work with Plaintiff. Id. at 157. Temple does not believe he
told Plaintiff she was unqualified for the position.
The position was ultimately given to Suzanne Black, who had previously
worked as an Analyst in a different department. [Dkt. 26 at f 18; Dkt. 52-1 at t
18.] Plaintiff testified that Black was “as qualified” as she was for the Analyst
position, and described Black as “very, very good” at her job. [Dkt. 26-6 at 105- 06.]

11a

Between May and August of 2013, Plaintiff transmitted at least one report
to the Independent System Operator for New England (“ISO”) without obtaining
reviews and signatures from the appropriate Eversource personnel. [Dkt. 26 at f
25, Dkt. 52-1 at Tf 25.] This error resulted in a North American Electric Reliability
Corporation (“NERC”) violation. [Dkt. 26 at If 25, Dkt. 52-1 at If 25.] Plaintiff
admits she made errors like submitting reports without signatures and submitting
reports late but asserts the errors were a small percentage of her work. [Dkt. 26 at
f 25, Dkt. 52-1 at 1 25; Dkt. 27-6 at 183:25 -187:13.]
On May 23, 2013, an email containing a self-report matrix was sent to
Duong Le, a compliance engineer from Northeast Power Coordinating Council,
Inc., from Plaintiffs email. [Dkt. 52-58.] Plaintiff alleges someone else sent the
email under her name. [Dkt. 52 at 26-27.] The parties have not provided the Court
with further information about the contents of this email.
In July of 2013, Plaintiff was placed on a “Success Plan” because peers and
management expressed frustration about Plaintiff s inability to retain and follow
instructions. [Dkt. 26-5 at 22.] The Plan was designed to “help improve both the
quality and timeliness of her work.” Id. Plaintiff “successfully completed the
actions noted in the Success Plan in late October” and began working with a
mentor. Id.
On August 15, 2013, Plaintiff filed a race discrimination complaint through
the “Beacon Line,” Defendant’s internal discrimination and harassment reporting
system. [Dkt. 52-14.] She accused Temple of racial discrimination dating back to

12a

2010. [Dkt. 52-14.] In her Beacon Line complaint, Flowers asserts discrimination
based on her conversation with Temple about his Japanese heritage, Temple’s
negative annual performance review of her in 2010, Temple’s statement that she
was not eligible for the analyst position, the email sent to Duong Le, which she
asserts was sent by someone else accessing her account in an attempt to sabotage
her, and her placement on a Success Plan, which she believes was punitive. Id. at
3, 4, 5, 6.
Denise Nadeau, Program Manager for Labor Relations for Eversource
Energy ("nadeau") was tasked with investigating Flower's complaints. Nadeau
described her Beacon Line investigation in an affidavit to the EEOC. [Dkt. 52-51.]
In her affidavit, Nadeau stated she compiled a list of critical issues from Plaintiffs
internal complaint and allowed Plaintiff to review that list and make any
comments or changes. [Dkt. 52 51 at 3.] Nadeau interviewed several individuals
from Plaintiffs department including PlaintifPs direct supervisor, the department
director, and a manager and staff engineer who worked with Plaintiff. Id. She
reached out to IT about the email allegations. Id. In addition, Nadeau
investigated Flowers’ unsuccessful application for promotion to an Analyst
position. Id. After approximately 20 hours spent on the investigation, Nadeau
found no evidence of discrimination or sabotage. Id. at 4.
On September 11, 2013, Plaintiff met with Nadeau, Program Manager for to
discuss the August 2013 Beacon Line complaint. [Dkt. 52-49.] At this meeting,
Nadeau informed Plaintiff that there was insufficient evidence to support her

13a

complaint. Id. During that conversation, Plaintiff asked Ms. Nadeau if her
investigation had revealed information about the May 23, 2013 email to Duong Le.
Id. Ms. Nadeau told Plaintiff her investigation had focused on the May 23, 2013
email, but that Plaintiff could contact IT Security Manager Bob Ciurylo if she
wanted additional information about the email. [Dkt. 52-51.]
On October 29, 2013, Nadeau and Mariana Emanuelson met with
Plaintiff and told her that IT had “found no evidence that anyone other than Ms.
Flowers had anything to do with sending the email to Mr. Le” and that they
would like to close out the investigation. [Dkt. 52 51, Dkt. 26-9 at 4.] Plaintiff
alleges that at this meeting Nadeau accused her of harassing IT manager
Ciurylo, and states the harassment accusation made her afraid to continue
investigating the email. [Dkt. 52*2 at 32-36]. Flowers does not specify exactly
what was said or done to cause her to conclude that her conduct was perceived
as harassment. Defendant denies that Nadeau characterized Flowers’
communications with Ciurylo as harassment or otherwise threatened her. [Dkt.
52-52 at

9.]

In addition, Plaintiff does not give specific dates but alleges that Temple
instructed Plaintiffs co-workers to report to him any errors Plaintiff made in the
Compliance Web-based Corrective Action Tracking System (CATsWeb). [Dkt. 52-2
at 13.] She alleges this supervision was a retaliatory measure taken by Defendant
because of her Beacon Line complaint. [Dkt. 14 at f^[ 49, 178.] Defendant denies
placing Flowers under increased scrutiny and states Plaintiffs allegation is

14a

unfounded. [Dkt. 25 at 16.] Flowers does not offer testimony, affidavits or other
evidence to support this claim.
In Plaintiffs 2013 Performance Review, Temple stated Plaintiff still
exhibited inconsistency in the quality and timeliness of her work. [Dkt. 26-5 at 22
24.] Plaintiff alleges that negative statements about her work performance in her
2013 performance review were made in retaliation for Plaintiffs complaint about
race discrimination. [Dkt. 27-6 at 260:8-10.]
On May 22, 2014, Plaintiff filed a discrimination claim with the EEOC. [Dkt.
52-9.]. Plaintiff alleged she had been a “victim of unlawful employment
discrimination on the basis of [her] race.” Id. at 2. The EEOC charge focused on two
issues, 1) retaliation by Denise Nadeau in the handling of Plaintiffs internal racial
discrimination complaint and 2) alleged “unfavorable and unjustified” statements
made by Plaintiffs supervisor William Temple in her 2013 performance review in
an effort to retaliate against her for her internal racial discrimination complaint.
Id. at 3-4, 5.
On February 5, 2015, the EEOC issued a right to sue letter and” [Dkt. 5267.] Plaintiff filed the Complaint in this action on April 10, 2015. [Dkt. 1.] Plaintiff
submits a cause of action for failure to promote and a cause of action for retaliation
based on “[t]he conduct of Nadeau in reprimanding the plaintiff for following up
with Ciurylo, as originally suggested by Nadeau, the unfavorable annual job rating
of the plaintiffs work performance prepared by Temple and continued unfair
scrutiny of the plaintiffs job activities. [Dkt. 14.]

15a

In March of 2016, Plaintiff applied for a Senior NERC Specialist position in
the Transmission Reliability Compliance Department. [Dkt. 52-76 at 3.]
Plaintiff alleges in August of 2016 she was informed by her current
manager, Mark Kenny that Human Resources had refused to consider Plaintiff for
the position because of her 2013 Job Performance Review. [Dkt. 52-2 at 44.]
Plaintiff resigned from the position of Associate Analyst on September 26, 2016.
Id.
II.

Standard of Review: Motion for Summary Judgment
“A party may move for summary judgment, identifying each claim or

defense—or the part of each claim or defense—on which summary judgment is
sought. The court shall grant summary judgment if the movant shows that there is
no genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law. The court should state on the record the reasons for granting or
denying the motion.” Fed. R. Civ. P. 56(a).In order to prevail, the moving party
must sustain the burden of proving that no factual issues exist. Vivenzio v. City of
Syracuse, 611 F.3d 98, 106 (2d Cir. 2010). “In determining whether that burden
has been met, the court is required to resolve all ambiguities and credit all factual
inferences that could be drawn in favor of the party against whom summary
judgment is sought. Id. (citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250
(1986); Matsushita Electric Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986). “If there is any evidence in the record that could reasonably support a
jury’s verdict for the nonmoving party, summary judgment must be denied.” Am.

16a

Home Assurance Co. v. HapagLloyd Container Linie, GmbH, 446 F.3d 313, 315-16
(2d Cir. 2006) (quotation omitted). In addition, “the court should not weigh
evidence or assess the credibility of witnesses” on a motion for summary judgment,
as “these determinations are within the sole province of the jury.” Hayes v. New
York City Dep’t of Corr., 84 F.3d 614, 619 (2d Cir. 1996).
“A party opposing summary judgment ‘cannot defeat the motion by relying
on the allegations in [her] pleading, or on conclusory statements, or on mere
assertions that affidavits supporting the motion are not credible.’ At the summary
judgment stage of the proceeding, [pllaintiffs are required to present admissible
evidence in support of their allegations; allegations alone, without evidence to
back them up, are not sufficient.” Welch'Rubin v. Sandals Corp., No. 3;03*cv481,
2004 WL 2472280, at *1 (D. Conn. Oct. 20, 2004) (quoting Gottlieb v. County of
Orange, 84 F.3d 511, 518 (2d Cir. 1996)). “Summary judgment cannot be defeated
by the presentation .. . of but a ‘scintilla of evidence’ supporting [a] claim.” Fincher
v. Depository Trust & Clearing Corp., 604 F.3d 712, 726 (2d Cir. 2010) (quoting
Anderson, 477 U.S. at 251).
A court must make the threshold determination of whether there is the
need for a trial—whether, in other words, there are any genuine factual issues
that properly can be resolved only by a finder of fact because they may
reasonably be resolved in favor of either party. Anderson, 477 U.S. at 250.
Judges are not required “to submit a question to a jury merely because some
evidence has been introduced by the party having the burden of proof, unless

17a

the evidence be of such a character that it would warrant the jury in finding a
verdict in favor of that party. Formerly it was held that if there was what is
called a scintilla of evidence in support of a case the judge was bound to leave it
to the jury, but recent decisions of high authority have established a more
reasonable rule, that in every case, before the evidence is left to the jury, there
is a preliminary question for the judge, not whether there is literally no
evidence, but whether there is any upon which a jury could properly proceed to
find a verdict for the party producing it, upon whom the onus of proof is
imposed/’ Anderson, All U.S. at 251 (citing Pennsylvania R. Co. v.
Chamberlain, 288 U.S. 333, 343 (1933); Coughran v. Bigelow, 164 U.S. 301, 307
(1896)). Indeed, summary judgment should be granted where the evidence is
such that it “would require a directed verdict for the moving party.” Sartor v.
Arkansas Gas Corp., 321 U.S. 620, 624 (1944).
“A party asserting that a fact is genuinely disputed must support the
assertion by . . . citing to particular parts of materials in the record, including
depositions, documents, electronically stored information, affidavits or
declarations, stipulations, admissions, interrogatory answers, or other materials.”
Fed. R. Civ. P. 56(c)(1). A party may also support their assertion by “showing that
the materials cited do not establish the absence of a genuine dispute.” Id.
Cited documents must consist of either “(l) the affidavit of a witness
competent to testify as to the facts at trial and/or (2) evidence that would be
admissible at trial.” Local R. Civ. P. 56(a)3> see also Fed. R. Civ. P. 56(c)(4). The

18a

Court need not consider any materials that the parties have failed to cite, but may
in its discretion consider other materials in the record. Fed. R. Civ.P. 56(c)(3). If a
party fails to properly support an assertion of fact, or fails to properly address
another party’s assertion of fact, the Court may grant summary judgment on the
basis of the undisputed facts. D. Conn. L. Rule 56(a)(3) (stating that “failure to
provide specific citations to evidence in the record as required by this Local Rule
may result in the Court deeming certain facts that are supported by the evidence
admitted in accordance with [Local] Rule 56(a)(1) or in the Court imposing
sanctions, including ... an order granting the motion if the undisputed facts show
that the movant is entitled to judgment as a matter of law”).
Finally, while Plaintiff was initially represented by counsel, she chose to
proceed without counsel after Defendant filed its motion for summary judgment,
and has filed her own opposition pro se. “[I]t is well established that the
submissions of a pro se litigant must be construed liberally and interpreted to
raise the strongest arguments that they suggest.” Triestman v. Fed. Bureau of
Prisons, 470 F.3d 471, 474 (2d Cir. 2006). When a party exercises his or her “right
of self- representation,” the Court is obliged to “make reasonable allowances to
protect pro se litigants from inadvertent forfeiture of important rights because of
their lack of legal training.” Id. at 475 (citing Traguth v. Zuck, 710 F.2d 90, 95 (2d
Cir. 1983).

19a
III.

Discussion
Plaintiff alleges that Defendant discriminated against her by (l) failing to

promote her and (2) retaliating against her for complaining about discrimination
in the promotion decision. Defendant challenges Plaintiff s claims on three
grounds: (l) Plaintiffs promotion claim is barred by the statute of limitations; (2)
Plaintiff fails to raise a question of fact whether Defendant’s failure to promote
her was discriminatory; and (3) Plaintiff fails to raise a question of fact whether
Defendant retaliated against her for filing her Beacon Line complaint. The Court
evaluates each argument in turn.
IV.

Timeliness of Promotion Claim
Defendant argues that Plaintiff only asserted an EEOC claim for retaliation

and failed to timely submit an EEOC claim regarding the promotion. As
Defendant asserts, the EEOC claim states: “This charge is a claim of retaliation
stemming from a racial discrimination complaint I filed with my employer ... on
8/15/2013.” [Dkt. 26-3 at 4 (emphasis in original).]
A Title VII claimant may bring suit in federal court only if she has filed a
timely complaint with the EEOC and obtained a right-to-sue letter. 42 U.S.C.
§2000e-16(c). However, “claims that were not asserted before the EEOC may be
pursued in a subsequent federal court action if they are reasonably related to
those that were filed with the agency.” Deravin v. Kerik, 335 F.3d 195, 200(2d
Cir. 2003); Mathirampuzha v. Potter, 548 F.3d 70, 76 (2d Cir. 2008). A claim is
“reasonably related” if “the conduct complained of would fall within the scope of

20a

the EEOC investigation which can reasonably be expected to grow out of the
charge of discrimination.” Id. at 76. An “adverse employment action taken in
retaliation ordinarily is deemed reasonably related to the original?- complaint.”
Malarkey v. Texaco, Inc., 983 F.2d 1204, 1209 (2d Cir. 1993); Soares v. Univ. of
New Haven, 175 F. Supp. 2d 326, at 331 (D. Conn. 2001).
Here, the EEOC complaint references the failure to promote Plaintiff to an
analyst position on May 6, 2013. [Dkt. 26 3 at 4.] In the EEOC complaint, Plaintiff
specifically provides information about the 2013 failure to promote “should the
EEOC consider investigating this claim as background to [her] retaliation claim.”
Id. at 5. In fact, Nadeau confirmed in an affidavit that she “did look into that
issue.” [Dkt. 52 51 at t 8.] The Court finds Plaintiffs failure to promote claim is
reasonably related to the exhausted, timely retaliation claim. Defendant’s motion
for summary judgment based on untimeliness of Plaintiffs failure to promote
2 This wording, and the wording of other cases, suggests that the order of events matters. For
example, the District of Connecticut has stated the relevant question is “whether a discrete act of
discrimination . .. occurring after the timely filing of an administrative complaint alleging
discriminatory treatment is reasonably related to the administrative complaint such that it need not
be separately exhausted administratively.” O'Hazo v. Bristol-Burlington Health Dist., 599 F. Supp.
2d 242, 254 (D. Conn. 2009) (emphasis added). However, the District of Connecticut has also allowed
unexhausted claims regarding employment actions which preceded an administrative complaint
when those actions were referenced in the administrative complaint. Cloutier v. England, 302-cv616, 2003 WL 32648094, *2 (D. Conn. July 15, 2003) (allowing claims where the EEOC complaint
stated the claimant had been passed over for promotions since 1988).

21a

claim is accordingly DENIED.
a. Merits of the Promotion Claim
Defendant asserts Plaintiff cannot establish a prima facie case of
employment discrimination for failure to promote and cannot establish that
Defendant’s legitimate, nondiscriminatory basis for its employment decisions is a
mere pretext for discrimination.
To state a claim for race-based employment discrimination for failure to
promote, a complainant must establish a prima facie case by showing:
1 that [s]he belongs to [a protected group],'
2 that [s]he applied and was qualified for a job for which the
employer was seeking applicants!
3 that, despite h[er] qualifications, [s]he was rejected,'and
4 that, after h[er] rejection, the position remained open and the
employer continued to seek applicants from persons of
complainant's qualifications.
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973),' Byrne v. Cromwell,
Bd. ofEduc., 243 F.3d 93, 101 (2d Cir. 2001) (superseded on other grounds)
(stating the McDonnell framework applies to race discrimination claims under
Title VII as well as age discrimination claims under ADEA). Even at the summary
judgment phase, where a plaintiff must put forth evidence in support of each of
these elements, the “plaintiffs prima facie burden [i]s minimal and de minimis.”
Woodman v. WWOR-TV, Inc., 411 F.3d 69, 76 (2d Cir. 2005) (internal quotation
marks omitted). If the complainant makes out a prima facie case, the burden then
shifts to the employer to “articulate some legitimate, nondiscriminatory reason for
the employee’s rejection. Id. at 802 03. If employer does so, the burden shifts back

22a

to the complainant to show the employee’s legitimate, nondiscriminatory reason is
a pretext for prohibited discrimination. Id. at 804. To establish pretext, the
complainant may raise “facts as to the [employer’s] treatment of [complainant]
during his prior term of employment; [the employer’s] reaction, if any, to
[complainant’s] legitimate civil rights activities,' and [the employer’s] general policy
and practice with respect to minority employment.” Id. at 804-05.
Where a complainant shows a prima facie case and the employer raises a
legitimate, non discriminatory purpose for the hiring decision, but the complainant
“cannot offer direct evidence of an improper discriminatory bias,” the complainant
must rely on the “strength of his prima facie case combined with circumstantial
evidence that [the employer’s] stated reason for failing to hire [the complainant] is
pretext” in order to defeat summary judgment. Byrne, 243 F.3d at 102. The Court
“must respect the employer’s unfettered discretion to choose among qualified
candidates,” and “does not sit as a super-personnel department to reexamine a
firm’s business decisions about how to evaluate the relative merits of education
and experience in filling job positions.” Id. at 103,' Newsom- Lang v. Warren Int’l,
Inc., 80 F. App’x 124, 126 (2d Cir. 2003). However, “an employer’s disregard or
misjudgment of a plaintiffs job qualifications may undermine the credibility of an
employer’s stated justification for an employment decision.” Id. Where the
“credentials of the person selected for the job” are such that “no reasonable person
. . . could have chosen the candidate selected over the plaintiff,” the employer’s
hiring decision may not stand. Barry v. New Britain Bd. ofEduc., 300 F. App’x

23a

113, 114 (2d Cir. 2008) (citing Byrne, 243 F.3d at 103). The record includes
evidence establishing a prima facie case of discrimination based on the failure to
promote.
Flowers: (l) Flowers is a member of a protected classes in that she is
African American (Dkt. 26"6 at 106); (2) She applied for the April 2013 analyst
position and was, for the purposes of the prima facie analysis, qualified3 (Dkt. 26
at Tfl8; Dkt. 52-1 at If 18); (3) Flowers was not selected for the position (Id)', and (4)
Instead of Flowers, Black was formally appointed to the analyst position. Id.
In turn, Defendant asserts it has raised a legitimate, nondiscriminatory
reason for its failure to promote Flowers: Plaintiffs performance was “substandard
and erratic,” rendering her unqualified to serve as an analyst. [Dkt. 25 at 12.]
Flowers’ annual review for 2012, which was completed three months before she
applied for the analyst position, supports Defendant’s assertion that her work
product “could ... be improved.” [Dkt. 26-5 at 15 (2012 review).] For example,
Flowers occasionally failed to “follow 0 through on assignments and had to be
reminded,” “waitted] to the last minute to get things done,” and produced work
which included “a number of errors.” Id. at 16-18. Flowers’ supervisor concluded
3 Flowers asserts that she was in fact qualified for the position, and her performance reviews
consistently rate her as a “Successful Contributor” in most categories of review.... A “successful
contributor” is defined as one who “routinely meets expectations and may occasionally exceed
expectations.” Id. at 3. Given the Plaintiffs “minimal” burden to establish a prima facie case, the
i

Court finds Plaintiffs evidence of qualification sufficient to continue the analysis. Woodman, 411
F.3d at 76.

24a

that as of January 2013, Flowers “needled] to improve in the overall quality and
consistency in her work.” Id. at 18. Flowers’ reviews for prior years also “encourage
[Plaintiff] to continue to pay attention to details,” {Id. at 13 (2011 review), and
document a consistent need to “go back and correct mistakes.” Id. at 6 (2011
review).
The rating system for annual reviews also supports Defendant’s position
that Plaintiffs performance was not sufficient to warrant a promotion.
Defendant’s annual reviews rate employees out of the following five categories:

(5)
(4)
(3)

(2)

(1)

Top Achiever: Routinely exceeds expectations; is self-directed, expertly
skilled, and a role model.
High Contributor: Frequently exceeds expectations,' demonstrates high
level skills, initiative, and productivity.
Successful Contributor or Developing: Routinely meets expectations and
may occasionally exceed expectations - OR - is developing (performance
satisfactory based on time in position.)
Improvement Needed to Be a Successful Contributor: Results approach
requirements but do not fully meet expectations; some improvement is
needed.
Did Not Meet Performance Expectations: Results do not approach
requirements and are below expectations; sustained improvement is
required.
In the years preceding her application for the analyst position, Plaintiff

consistently rated as a “Successful Contributor” in most categories of review.
Specifically, in 2010, Plaintiff rated “Successful Contributor” in all but two
categories, in which she rated “Improvement Needed.” [Ex. 26-2 at 5.] In 2011, she
rated “Successful Contributor or Developing” in all categories but one,
(“Contributing to Team Success”), in which she was a “High Contributor.” Id. at 56. In 2012, she rated “Successful Contributor” in all categories but one, in which

25a

she rated “Improvement Needed.” Id. at 6-7.
Given Plaintiffs consistently average evaluations, it is reasonable to infer
that Plaintiffs performance in a higher position would have been unacceptable.
Flowers’ evaluations support Defendant’s assertion that her performance was
insufficient to warrant a promotion.
In further support of Defendant’s assertion that its promotional decision
was legitimate, Plaintiff does not dispute that Black was qualified for the position.
[Dkt. 26-6 at 105-06.]
The burden accordingly shifts back to Plaintiff to show that Defendant’s
legitimate, nondiscriminatory reason for not promoting her is a mere pretext for
race-based discrimination. However, Flowers has raised no evidence to support this
contention. Plaintiff raises other events that allegedly establish Temple was
motivated by racial animus when he told her she was not eligible for the analyst
position but supports those examples with only her own deposition testimony
and/or EEOC complaint. However, a Plaintiffs own “self-serving testimony,” which
is “speculative, and subjective” and does not “square . . . with the hard evidence
adduced during discovery,” is “insufficient to defeat summary judgment.” Deebs v.
Alstom Transp. Inc., 346 F. App’x 654, 657 (2d Cir. 2009) (citing Meiri v. Dacon,
759 F.2d 989, 998 (2d Cir. 1985) (explaining that allowing “a party to defeat a
motion for summary judgment by offering purely conclusory allegations of
discrimination, absent any concrete particulars, Would necessitate a trial” in all
employment discrimination actions).

26a

For example, Plaintiff argues her 2010 discussion with Temple in which he
discussed his own Asian heritage is evidence that Temple was motivated by racial
animus when he told her she was unqualified for the promotion. However, Plaintiff
offers only her own allegation to support her claim. [See, e.g., Dkt. 52 at 4 (citing
Plaintiffs transcript and Plaintiffs Beacon Line complaint to support her
characterization of the 2010 conversation)]. Plaintiff has offered no other evidence
suggesting this conversation was in any way tied to her failure to secure a
promotion three years later. Nor has she offered any evidence supporting her
contention that the conversation with Temple was discriminatory against her.
[Dkt. 52 at 4 (citing Plaintiffs transcript and Plaintiffs Beacon Line complaint to
support her characterization of the 2010 conversation); Id. at 5 (citing Temple’s
Beacon Line investigation response which states Temple attempted to “bond” with
Plaintiff “about his heritage” and “how others treated him because he was bi*
racial”).] At best, Temple's statement could be characterized as reflecting a bias
against Asians, not African Americans. Even if the statement was made it would
not support Flowers' discrimination claim on the basis of her African American
heritage or ethnicity. Plaintiffs “conclusory” allegations, “without evidence to back
them up, are not sufficient.” Welch'Rubin, 2004 WL 2472280 at *1.
Similarly, Plaintiff alleges that other employees also made errors and were
promoted to other positions or not supervised to the same degree as Plaintiff. [Dkt.
52 at 17.] However, Plaintiff offers no evidence of the particulars of this claim. She
has not shown that she is similarly situated to the individuals to which she
compares herself. Accordingly, because plaintiff has failed to offer any evidence

27a

that defendants "treated him less favorably than a similarly situated employee
outside his protected group," Graham, 230 F.3d at 39 (emphasis supplied), the
Court finds that plaintiff cannot, as a matter of law, establish an inference of
gender discrimination sufficient to satisfy the prima facie standard. See, e.g.,
Goldman v. Admin, for Children's Servs., No. 04 Civ. 7890 (GEL), 2007 U.S. Dist.
LEXIS 39102, 2007 WL 1552397, at *6 (S.D.N.Y. May 29, 2007) ("[Plaintiffs claim
of discrimination . . . must fail, as she has not identified any individuals 'outside'
of the 'protected group' to whom she may compare herself."); Chan v. NYU
Downtown Hosp., No. 03 Civ. 3003 (RMB), 2005 U.S. Dist. LEXIS 40243, 2006 WL
345853, at *5 (S.D.N.Y. Feb. 14, 2006) [**29] (granting summary judgment where
the plaintiff "failted] to identify any similarly situated individuals outside her
protected class who were treated preferentially by the [defendant] . She cites only
her own deposition testimony to support that contention. Id. at 18. “Plaintiffs
evidence in this regard is solely based on her speculative belief’ that other
employees were treated differently. Weichman v. Chubb & Son, 552 F. Supp. 2d
271, 283-84 (D. Conn. 2008). Plaintiff cannot testify as to other employees’ conduct
that she did not personally observe, and has submitted no other evidence4 which
supports her assertions. Id. Plaintiff offers no evidence which raises a question of
fact as to whether Defendant’s reason for not promoting her was mere pretext for
4 Plaintiff also submits what appear to be records of other employees’ work product to establish those
other employees made mistakes... However, those logs are incomprehensible to the Court, and
Plaintiff does not provide any evidence which would allow the Court to decipher them.

28a

discrimination. Defendant’s motion for summary judgment as to her promotionbased discrimination claim is GRANTED.
b. The Retaliation Claim
Defendant also challenges Plaintiffs ability to establish a prima facie case
of retaliation and asserts that Plaintiff cannot show that Defendant’s legitimate,
nondiscriminatory reason for its conduct was a mere pretext for retaliation.
It is unlawful for an employer to discriminate against an employee because
he “has opposed any practice made an unlawful employment practice by this
subchapter, or because he has made a charge, testified, assisted, or participated in
any manner in an investigation, proceeding, or hearing under this subchapter.” 42
U.S.C. § 2000e-3(a). The burden-shifting framework laid out in McDonnell
Douglas Corp., 411 U.S. 792, governs retaliation claims. Summa v. Hofstra Univ.,
708 F.3d 115, 125 (2d Cir. 2013); Preston v. BristolHosp., 645 F. App’x at 19 (2d
Cir. 2017). To establish a prima facie case of retaliation, a plaintiff must put forth
evidence that:
1. [s]he engaged in protected activity (such as complaining about
discrimination);
2. h[er] employer knew about it;
3. h[er] employer took adverse action against h[er]; and
4. there is a causal connection between h[er] protected activity and the
adverse employment action.
Summa v. Hofstra Univ., 708 F.3d at 25.
For the purposes of a retaliation claim, an adverse employment action must
be “materially adverse,” that is, it must be “harmful to the point that [it] could well
dissuade a reasonable worker from making or supporting a charge of

29a

discrimination.” Hicks v. Baines, 593 F.3d 159, 165 (2d Cir. 2010) (quoting
Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 57 (2006)).
Once a plaintiff establishes a prima facia case of retaliation, the employer
then bears the burden of production “to demonstrate that a legitimate,
nondiscriminatory reason existed for its action.” Summa, 708 F.3d at 125. Poor
performance undoubtedly constitutes a legitimate, non-discriminatory reason. See
Varno v. Canfield, 664 F. App’x 63, 66 (2d Cir. 2016) (where plaintiff orally
complained of discrimination to HR employee prior to termination, the Second
Circuit found “[t]he defendants demonstrated a legitimate, non-discriminatory
reason for terminating Varno: substandard performance”); Lawless v. TWCMedia
Sols., Inc., 487 F. App’x 613, 616 (2d Cir. 2012) (stating that poor work
performance is a legitimate, non-retaliatory reason for termination in a Title VII
retaliation case); see generally Lawson v. City ofNew York, 595 F. App’x 89, 90 (2d
Cir. 2015) (upholding a district court’s determination that poor performance
evaluations provided a legitimate reason for reduction of hours and transfer to a
different unit); Oliver v. Waterbury Bd. ofEduc., No. 3:12-CV-1285, 2014 WL
1246711, at *18 (D. Conn. Mar. 24, 2014), appeal docketed, No. 14-1779 (2d Cir.
May 22, 2014) (in a Title VII retaliation case, the court stated, “Poor job
performance is a legitimate, non-retaliatory explanation for the adverse
employment actions taken.”).
Where the employer presents a legitimate, non-discriminatory reason, then
the burden shifts back to the plaintiff to provide direct or circumstantial evidence

30a

that the employer’s action was a mere pretext. See Summa, 708 F.3d at 125! Zann
Kwan v. Andalex Grp. LLC, 737 F.3d 834, 845 (2d Cir. 2013).
“[A] plaintiff alleging retaliation in violation of Title VII must show the
retaliation was a ‘but'for’ cause of the adverse action, and not simply a ‘substantial’
or ‘motivating’ factor in the employer’s decision.” Zann Kwan, 737 F.3d at 845"46
(citing Univ. of Texas Sw. Med. Ctr. v. Nassar, 133 S. Ct. 2517, 2526, 2533 (2013))>
Ya-Chen Chen v. City Univ. ofNew York, 805 F.3d 59, 70 (2d Cir. 2015) (“If the
defendant provides such an explanation, the presumption of retaliation dissipates,
and the plaintiff must prove that the desire to retaliate was the but for cause of the
challenged employment action.”) (internal quotation marks and citations omitted).
The Second Circuit has clarified that this “does not require proof that retaliation
was the only cause of the employer’s action, but only that the adverse action would
not have occurred in the absence of the retaliatory motive.” Id. Evidence of any
“weaknesses, implausibilities, inconsistencies, or contradictions in the employer’s
proffered legitimate, nonretaliatory reasons for its actions” can constitute sufficient
proof that retaliation is the “but for cause” of the adverse employment action. Id.
However, “temporal proximity alone is insufficient to defeat summary judgment at
the pretext stage.” Id. at 847; see Lawless, 487 F. App’x at 617.
Flowers’ Amended Complaint asserts three instances of retaliation^ (l)
Nadeau’s statement to Plaintiff that Plaintiff was borderline harassing someone in
the IT department about investigating whether Temple “spoofed” her email
account, (2) Temple’s 2013 annual review which included “false accusations and

31a

belittling comments,” and (3) Temple’s unduly high level of supervision of
Plaintiff.5 [Dkt. 14 (Amended Complaint) at 1 178.] The Court discusses each
allegation in turn.
i.

Plaintiffs Claim of Threatening

Plaintiff has not established a prima facie case that Defendant retaliated
against her when Nadeau notified Plaintiff she was borderline harassing someone
in the IT department over her email account. At step one, the parties do not
contest that Plaintiff participated in a protected activity when she filed her Beacon
Line complaint. [Dkt. 25 at 8.] At step two, Defendant knew about the protected
action, as Defendant conducted the Beacon Line investigation. [Dkt.52'51 at U 6.]
However, at step three, even given that “plaintiffs prima facie burden [i]s minimal
and de minimis, ’’Plaintiff has not made a showing that Defendant’s statement
was an adverse action. Woodman, 411 F.3d at 76. First, although Flowers offers no
evident that slie was a.ccused of harassment, even if she was accused of
harassing another co-worker, that accusation does not rise to the level of a
5 Plaintiff also appears to argue in her Opposition to Summary Judgment that Defendant retaliated
against her by failing to thoroughly investigate her Beacon Line complaint and by failing to promote
her in 2016. [Dkt. 52 at 56, 59.] Plaintiff did not include those alleged instances of retaliation in her
Complaint, and may not allege them for the first time in her Opposition to Summary Judgment.
Thomas v. Egan, 1 F. App’x 52 (2d Cir. 2001) C‘[l]t is inappropriate to raise new claims for the first
time in submissions in opposition to a summary judgment motion.”). The Court accordingly does not
consider whether those actions constituted actionable retaliation.

32a

“materially adverse action,” but rather it constitutes at most a “trivial harm,”
“petty slight” or “minor annoyance.” Id. at 568. See Burlington N. and Santa Fe
Fy. Co. v. White, 548 U.S. 53, 68 (2006); Teppervien v. Entergy Nuclear
Operations, Inc., 663 F.3d 556, 567-68 (2d Cir. 2011) (finding a “verbal threat” of
possible termination did not rise to the level of “materially adverse action” because
it was not acted upon). Under the objective standard, a reasonable employee in
this circumstance would not view Nadeau’s purported threat to “dissuadet ] a
reasonable worker from making or supporting a charge of discrimination.”
Tepperwien, 663 F.3d at 568 (quoting Burlington, 548 U.S. at 67- 68). Nadeau’s
comment is better characterized as a notice that the IT department did not have
the time or resources to investigate her emails a third time, but nothing more.
In addition, at step four, Plaintiff has not offered evidence that the threat
was causally connected to Plaintiff s Beacon Line complaint, even under the de
minimis standard. Woodman, 411 F.3d at 76. Plaintiff has not asserted that
Nadeau referenced the Beacon Line complaint when informing Plaintiff that the IT
department had exhausted its investigation of Plaintiffs emails, and has not
offered any other evidence that the two events are causally connected. The Court
has searched the record and can find no such evidence. Accordingly, Plaintiffs
retaliation claim regarding Nadeau’s “threat” must fail.
Assuming arguendo that Plaintiff satisfied her prima facie case, her claim
would still fail. At the second stage of the analysis, Defendant raises legitimate,
nondiscriminatory reasons for its actions.
. First, Defendant offers affidavits from Nadeau and Mariana Emanuelson,

33a

who was also present at the meeting, denying that Nadeau accused Plaintiff of
harassing Ciurylo. [Dkt. 52-51 at 5 (Nadeau stating “I was respectful and
courteous .... I never used the word “harassment” or indicated in any way that
Ms. Flowers’ actions were “bordering on harassment”); Dkt. 52-52 at 3
(Emanuelson stating Nadeau “was respectful and courteous” and “professional
throughout the meeting, and did not raise her voice, use a threatening tone or
words, or in any way disrespect or threaten Ms. Flowers. Ms. Nadeau did not
accuse Ms. Flowers of harassment or of conduct bordering on harassment.”).]
After making clear Defendant’s position that Nadeau did not state Flowers
harassed Ciurylo, Defendant offers a legitimate, nondiscriminatory reason why
Nadeau communicated to Flowers that IT would no longer investigate Flowers’
email-related question. Defendant points to Nadeau’s affidavit to explain that
Plaintiffs question about her emails “had now been reviewed twice by IT, and Bob
Ciurylo had met with her twice to report his findings.” [Dkt. 52-51 at 5.] Nadeau
“told her that Mr. Ciurylo’s team would not continue to investigate the same issue
again and again, but if she had any new issues, she could certainly bring them to
IT.” Id. Defendant has offered evidence of a legitimate, nondiscriminatory reason
for its actions.
The burden accordingly shifts back to Plaintiff to establish that Defendant’s
legitimate, nondiscriminatory reason for ending the IT department’s investigation
was mere pretext for discrimination.
Plaintiff cites no evidence to support her contention that Nadeau
characterized her communications with the IT department as “borderline

34a

harassment,” or that Nadeau did so in retaliation against Plaintiffs Beacon Line
complaint. Rather, she cites to her own deposition statement and EEOC
complaint, and what she characterizes as a “note [from Ms. Nadeau] directing
[Plaintiff] who to contact in IT Security” to investigate Plaintiffs allegation of
email “spoofing.” [Dkt. 52 at 23, 25 (citing Dkt. 52-50).] However, Defendant does
not contest that Nadeau instructed Plaintiff to contact the IT department with
email-related questions.
Plaintiff also cites email correspondence between herself and Mr. Ciurylo in
which Plaintiff thanks Mr. Ciurylo for investigating her email-related inquiry but
states that she is “not in total agreement” with his explanation and “would like to
further discuss the topic ... at a future date.” [Dkt. 52-55.] Again, the fact that
Plaintiff and Ciurylo discussed her email-related inquiry is not in dispute.
Plaintiff may have perceived Nadeau’s “matter-of-fact” statement that the
IT department would no longer investigate Plaintiffs email-related inquiry as an
accusation of borderline-harassment. [Dkt. 52*51 at 5.] However, Plaintiff cites no
evidence aside from her own “conclusory allegations” indicating that Ms. Nadeau
actually accused her of “harassment.” Nor does Plaintiff offer evidence that
Nadeau insinuated that if Plaintiff continued her behavior she would be
reprimanded or terminated. In addition, Plaintiff offers no evidence supporting her
contention that Nadeau’s “threat,” or conveyance that the IT department would not
investigate her email-related question a third time, was retaliation for Plaintiffs
Beacon Line complaint.

35a

Defendant’s motion for summary judgment as to Plaintiffs claim that
Nadeau threatened her in retaliation for her Beacon Line complaint is GRANTED.
11.

Plaintiff s Claim of False Accusations
Plaintiff has established a prima facie case of retaliation in the form of
Temple’s 2013 review. The first two steps are unchallenged as with Plaintiffs
previous retaliation claim. At step three, Plaintiff has made a de minimis showing
through her deposition testimony that Temple’s 2013 review of Plaintiff included
“blatant lies.” Id. at 26162; Ibok v. Secs. Indus. Automation Corp., 369 F. App’x
210 (2d Cir. 2010) (citing Burlington, 548 U.S. at 68) (finding a negative
performance review may be considered a “materially adverse action”). At step four,
Plaintiff has made a de minimis showing of causation given the timing of Temple’s
review. Temple submitted his 2013 review in January of 2014, five months after
Plaintiffs Beacon Line complaint. The Court notes that courts within the Second
Circuit have “not drawn a bright line to define the outer limits beyond which a
temporal relationship is too attenuated to establish a causal relationship between
the exercise of a federal constitutional right and an allegedly retaliatory action.”
Echevarria v. Utitec, Inc., 15"cvl840 (D. Conn. Sept. 25, 2017) (VLB) (collecting
cases). However, as was the case in Echevarria, there is an identifiable reason for
the delay here. See id. (finding a “three to four month gap” between protected
activity and allegedly retaliatory action supported an inference of causation where
Plaintiff was on extended medical leave during the period in question). In this
case, Defendant submits reviews in January of each year for the preceding year.

36a

[See Dkt. 26-5.] Temple’s January 2014 review was the first opportunity he had to
formally review Plaintiff after her Beacon Line complaint. See id. Accordingly, the
Court finds that Plaintiff has made a de minimis showing that Temple’s 2013
review was causally connected to the Beacon Line complaint given the temporal
proximity of the two events.
Defendant in turn raises legitimate, nondiscriminatory reasons for
Temple’s 2013 review: the critiques in the review are accurate. Temple’s 2013
review is consistent with Plaintiffs reviews which predate the Beacon Line
complaint. As stated previously in this decision, Plaintiff consistently rated as a
“Successful Contributor” in 2010 through 2012, which means she met
expectations. [Dkt. 26*2 at 4-5.] In addition, in 2010 and 2012, Plaintiff rated
“Needs Improvement” in the “Taking Accountability and Ownership” category. Id.
Plaintiffs 2013 ratings were commensurate with her past performance. In 2013,
Plaintiff rated “Successful Contributor” in every category but two,
“Ownership and Accountability” and “Trust and Respect,” which appears to have
been a new category introduced that year. Id. at 5-6.
In addition to showing that Plaintiffs 2013 review was consistent with her
pre-Beacon Line reviews, the 2013 review also shows that Temple’s critiques were
well-supported by facts. For example, Temple states that “[a]lthough Pat works
hard, the quality and timeliness of her work is inconsistent.” Id. As an example of
poor quality work, he notes that a particular action item was not assigned to the
director of Operations & Compliance for review as required, and Flowers’ failure

37a

to assign the action item for review was “a contributing cause to a NERC
violation.” Id. In addition to critiques supported by specific examples, Temple’s
review includes positive remarks.
For example, Temple states Flowers “[plroactively seeks out opportunities
to improve business performance and customer service. Responds positively to
new demands or circumstances. Exhibits a ‘can-do’ attitude to successfully
implement changes in priorities and work processes.” Id. at 4. Defendant has
offered evidence that Temple’s 2013 review was based on legitimate,
nondiscriminatory reasoning — it reflected Plaintiffs performance.
As with her prior retaliation claim, Plaintiff has not shown that Defendant’s
legitimate, nondiscriminatory reason for Temple’s 2013 review is a mere pretext
for discrimination. Plaintiff provides only her own “self-serving statements” to
allege that the review contains “blatant lies.” Deebs, 346 F. App’x at 657; [Dkt. 52
at 57 (citing Plaintiffs own deposition testimony and Plaintiffs own rebuttal
statement regarding the 2013 review).] Her testimony does not “square . . . with
the hard evidence adduced during discovery” that Plaintiff has consistently been
critiqued for failure to follow directions or double-check her own work. Deebs, 346
F. App’x at 657; [Dkt. 26 5 at 22 (stating Plaintiff was placed on a “Success Plan”
in July of 2013 because peers and management expressed frustration at Plaintiffs
ability to retain and follow instructions).] Plaintiff has not asserted a question of
fact regarding whether Defendant’s legitimate, nondiscriminatory basis for
Plaintiffs 2013 review a mere pretext for unlawful retaliation was. Defendant’s
motion for summary judgment on this point is GRANTED.

38a

m.

Plaintiffs Undue Scrutiny Claim
Finally, Plaintiff has failed to establish a prima facie case of retaliation in
the form of undue scrutiny. As with Plaintiff s prior two retaliation claims, the fist
two steps of the prima facie case are not in dispute. At step three, Plaintiff has not
shown that Temple subjected her to actionable supervision. Plaintiff has not
identified, nor is the Court aware, of any case in which additional oversight over an

employee’s work product constitutes a “materially adverse action.” While this
court does not subscribe to the notion that excessive scrutiny can and is often used
to achieve a discriminatory end and the heightened pressure may undermine an
employee's ability to perform and result in underperformance, such cases are
typically brought as hostile work environment or disparate treatment claims
supported by facts establishing a nefarious motive. . As noted above, the facts of
this case do not make such a showing.
There is ample case law indicating that even “excessive” or “undue”
supervision is not materially adverse. See, e.g., Rebaudo v. AT&TServs., Inc., No.
3:09-CV-00437 (DJS), 2013 WL 5435489, at *10 (D. Conn. Sept. 30, 2013)
(“Reprimands, threats of reprimands, and excessive scrutiny of an employee, on
the other hand, do not constitute materially adverse employment actions.”)
(quoting Oliphant v. Conn. Dep’t of Transp., No. 3^02-cv700 (PCD), 2006 WL
3020890, at *6 (D. Conn. Oct. 23, 2006); Green v. Jacob & Co. Watches, Inc., -F.
Supp. 3d---, 2017 WL 1208596, at * 5 (S.D.N.Y. 2017) (“However, ‘excessive
scrutiny, criticism, and negative evaluations of an employee's work are not

39a

materially adverse employment actions unless such conduct is accompanied by
negative consequences, such as demotion, diminution of wages, or other tangible
loss.’”); Bathelor v. City ofNew York, 12 F. Supp. 3d 458, 475-76 (E.D.N.Y. 2014)
(“As for Plaintiffs excessive scrutiny and discipline at AMKC, while Plaintiff
undoubtedly felt subjectively discouraged by the excessive verbal scrutiny and
imposition of report-writing requirements, the undesirable rotating schedule and
the unwarranted command disciplines, there is no evidence that these actions by
Defendants prevented her from advancing in her career or otherwise materially
altered the conditions of her employment.”); Borrero v. Am. Exp. Bank Ltd., 533 F.
Supp. 2d 429, 437-38 (S.D.N.Y.) (finding “public criticism, overbearing scrutiny.
and other less than civil behavior” did not constitute a “materially adverse action”
under Title VII, but ruling that such non-material actions in conjunction with
“other claims, such as unequal pay,” were sufficient to establish that materially
adverse actions were motivated by gender discrimination).
In addition, at step four, Plaintiff has not alleged a de minimis causal
connection between Temple’s supervision and her Beacon Line complaint.
Woodman, 411 F.3d at 76. Evidence indicates that Temple monitored Plaintiffs
work product both before and after her Beacon Line complaint. [Dkts. 52-27, 5228.] Plaintiff has not alleged that Temple’s supervision intensified or changed in
any way after her Beacon Line complaint, and the Court’s review of Temple’s
notes has not revealed evidence of intensification. Id. In fact, Plaintiff was placed
on a “Success Plan,” arguably the most hands-on form of supervision imposed on
her, before the Beacon Line complaint. [Dkt. 26-5 at 22 (showing Plaintiff was

40a

placed on a Success Plan in July 2013, a month before her Beacon Line
complaint).] Where a Plaintiff has failed to raise evidence of causation, and
“gradual adverse job actions began well before the Plaintiff had ever engaged in
any protected activity, an inference of retaliation does not arise.” Rafael v. Conn.
Dep’t of Children & Famihes, No. 3‘14cv-1746, 2017 WL 27393, at *5 (D. Conn.
Jan. 3, 2017) (VLB) (citing Slattery v. Swiss Reinsurance Am. Corp., 248 F.3d 87,
95 (2d Cir. 2001). Plaintiff has offered only vague accusations devoid of factual
support and the facts actually adduced refute her claim. Accordingly her Flowers
has not made a de minimis showing that Temple’s supervision was causally
connected to her Beacon Line complaint and her claim must accordingly fail.
In addition, even if it proceeded to the next step of the analysis, Plaintiffs
claim would fail. Defendant in turn raises a legitimate, nondiscriminatory reason
for its actions. Defendant offers proof that Temple monitored Plaintiffs
performance because her work quality was inconsistent. [Dkt. 26-5.] Defendant’s
reviews of Plaintiff indicate that Plaintiff needed to work on making fewer
mistakes and requiring fewer revisions. See, e.g., id. at 17 (2013 review stating
“there were a number of errors and lack of follow through to correct the errors”).
1

Annual reviews also indicated that Plaintiff “relied on coworkers to notify her” of
action items and required “reminders ... to complete overdue . .. assignments.”
Id.
At the third stage of the analysis, the burden shifts back to Plaintiff to offer
evidence that Defendant’s legitimate reason for supervising her was a mere pretext
for discrimination. Plaintiff fails to offer such evidence. Plaintiff asserts that others

41a

were supervising her at Temple’s direction, but makes no showing that Temple
orchestrated any level of supervision as racial discrimination rather than as a
quality-control measure in light of her inconsistent work product. [Dkt. 52 at 9
(citing Dkt. 52-27 (Temple’s notes regarding Plaintiffs work product, which do not
indicate the basis for his supervision, but which do include substantive comments
memorializing conversations with Plaintiff about her tardiness and need to doublecheck her work),' Dkt. 52-28 (same))]. In addition, Plaintiff cites an email from a
coworker ostensibly apologizing for subjecting her to undue scrutiny. [Dkt. 52 at 9.]
However, the email does not mention supervision of Plaintiff, but rather states “I
was not in a good place at NU - sorry you had to deal with that.” [Dkt. 52-32.]
Plaintiff presents no evidence which supports her assertion that Temple
orchestrated supervision of Plaintiff to retaliate against her for filing the Beacon
Line complaint or out of racial animus.
Further, Defendant monitored Plaintiffs work product both before and after
the Beacon Line complaint. [Dkt. 52-27 (Temple’s notes memorializing meetings
with Plaintiff and feedback given to Plaintiff dating back to 2010).] Plaintiff does
not offer evidence of an upswing in Temple’s supervision of Plaintiff after the
Beacon Line complaint which might support a retaliation claim.
Finally, while Plaintiff testified that her work product did not require
oversight by others, she also “concurred] with th[e] assessment” that in 2012 she
required “several reminders” about how to complete tasks and her “quality reviews
of documents could also be improved.” [Dkt. 26-5 at 15 (“I can see where the

42a

quality of my work has suffered.”).] Plaintiffs claim relies on self-serving
testimony which the Plaintiff herself contradicted and “failed to explain away.”
Jeffreys v. City ofNY., 426 F.3d 549, 555 (2d Cir. 2005).
Plaintiff has failed to establish a prima facie case of retaliation in the form
of undue scrutiny. In addition, Plaintiff has failed to raise a question of fact
whether Defendant’s legitimate, nondiscriminatory reason for monitoring
Plaintiffs work product mere pretext for retaliation against her Beacon Line
complaint was. Defendant’s motion for summary judgment as to this retaliation
claim is GRANTED.
V.

Conclusion
For the foregoing reasons, Defendant’s Motion for Summary Judgment is
GRANTED as to all claims. The Clerk is directed to close this file.

“s/” Vanessa Bryant
Hon. Vanessa L. Bryant
United States District Judge

43a

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City
of New York, on the 23rd day of July, two thousand nineteen.

Patricia A. Flowers ■

ORDER

Plaintiff-Appellant

Docket No.18-2415

v.

Connecticut Light and Power Company, AKA Northeast Utilities, AKA Eversource
Energy,
Defendant - Appellee
Appellant, Patricia A. Flowers, filed a petition for panel rehearing, or, in the
alternative, for rehearing en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
7s” Catherine O’Hagan Wolfe, , Clerk

